<html>
<title> - A DISCUSSION WITH SBA ADMINISTRATOR JOVITA CARRANZA: CURRENT ISSUES AND THE FISCAL YEAR 2021 BUDGET</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


A DISCUSSION WITH SBA ADMINISTRATOR JOVITA CARRANZA: CURRENT ISSUES AND 
                           THE FY2021 BUDGET

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON SMALL BUSINESS
                             UNITED STATES
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD
                           FEBRUARY 26, 2020

                               __________

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
                               

            Small Business Committee Document Number 116-073
             Available via the GPO Website: www.govinfo.gov             
             
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
39-766                  WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------             
             
             
                   HOUSE COMMITTEE ON SMALL BUSINESS

                 NYDIA VELAZQUEZ, New York, Chairwoman
                         ABBY FINKENAUER, Iowa
                          JARED GOLDEN, Maine
                          ANDY KIM, New Jersey
                          JASON CROW, Colorado
                         SHARICE DAVIDS, Kansas
                          JUDY CHU, California
                           MARC VEASEY, Texas
                       DWIGHT EVANS, Pennsylvania
                        BRAD SCHNEIDER, Illinois
                      ADRIANO ESPAILLAT, New York
                       ANTONIO DELGADO, New York
                     CHRISSY HOULAHAN, Pennsylvania
                         ANGIE CRAIG, Minnesota
                   STEVE CHABOT, Ohio, Ranking Member
   AUMUA AMATA COLEMAN RADEWAGEN, American Samoa, Vice Ranking Member
                       DAN BISHOP, North Carolina
                          TROY BALDERSON, Ohio
                          KEVIN HERN, Oklahoma
                        JIM HAGEDORN, Minnesota
                        PETE STAUBER, Minnesota
                        TIM BURCHETT, Tennessee
                          ROSS SPANO, Florida
                        JOHN JOYCE, Pennsylvania

                 Melissa Jung, Majority Staff Director
   Justin Pelletier, Majority Deputy Staff Director and Chief Counsel
                   Kevin Fitzpatrick, Staff Director
                            
                            
                            C O N T E N T S

                           OPENING STATEMENTS

                                                                   Page
Hon. Nydia Velazquez.............................................     1
Hon. Steve Chabot................................................     2

                                WITNESS

The Honorable Jovita Carranza, Administrator, U.S. Small Business 
  Administration, Washington, DC.................................     3

                                APPENDIX

Prepared Statement:
    The Honorable Jovita Carranza, Administrator, U.S. Small 
      Business Administration, Washington, DC....................    29
Questions for the Record:
    None.
Answers for the Record:
    None.
Additional Material for the Record:
    None.

 
A DISCUSSION WITH SBA ADMINISTRATOR JOVITA CARRANZA: CURRENT ISSUES AND 
                      THE FISCAL YEAR 2021 BUDGET

                              ----------                              


                      WEDNESDAY, FEBRUARY 26, 2020

                  House of Representatives,
               Committee on Small Business,
                                                    Washington, DC.
    The Committee met, pursuant to call, at 11:32 a.m., in Room 
2360, Rayburn House Office Building. Hon. Nydia Velazquez 
[chairwoman of the Committee] presiding.
    Present: Representatives Velazquez, Finkenauer, Golden, 
Kim, Davids, Chu, Schneider, Delgado, Houlahan, Craig, Chabot, 
Balderson, Hern, Hagedorn, Stauber, Burchett, Spano, Joyce and 
Bishop.
    Chairwoman VELAZQUEZ. Good morning. The Committee will come 
to order.
    Today, we have the opportunity to welcome the Honorable 
Jovita Carranza, the 26th Administrator of the Small Business 
Administration, to our Committee.
    While there are many political and ideological differences 
represented on this Committee, one thing we all agree on is the 
importance of small businesses to our nation's economy. 
America's 30 million small businesses are the cornerstones of 
our communities.
    When a Main Street business succeeds, America succeeds. Not 
only do hard-earned dollars get reinvested back into our 
neighborhoods, but we also see robust job creation and 
innovation.
    However, launching a business is not easy. It can be 
inherently risky. Even the most careful planner can 
underestimate the costs associated with bringing an innovative 
idea to the marketplace. Sadly, too many fail in the first 18 
months.
    That is why in 1953, Congress created the Small Business 
Administration. The SBA is the only federal agency tasked 
specifically with helping small businesses grow and succeed. 
Through its extensive network of field offices and resource 
partners, SBA connects entrepreneurs with technical assistance, 
capital, and Federal contracting opportunities. It is 
imperative that the agency operates effectively so that small 
businesses can get the most out of these programs.
    To that end, we have held numerous hearings to see what is 
working and what can be improved. We have learned that one of 
the biggest challenges facing small businesses is access to 
capital, which is critical for a new business owner to start 
up, hire employees, and expand operations. Without adequate 
resources, small businesses fail to realize their full 
potential.
    The SBA can play a vital role in filling the gaps through 
its loan programs. The Committee has long supported the 
Microloan program, and more recently, the Community Advantage 
program. These two initiatives have gone a long way in reaching 
women, minorities, and veterans, who otherwise will not be 
served by private sector lenders or even the 7(a) program. I 
hope we can work collaboratively to support and expand these 
initiatives.
    With that said, the lending needs of women, minority, and 
veteran-owned businesses are a top priority for me. I know Ms. 
Carranza has expressed an interest here as well, and I look 
forward to hearing more about the steps you will take to reach 
more of these entrepreneurs.
    Similarly, increasing contracting opportunities for small 
businesses, especially from underserved communities, is a 
shared goal that I hope we can leverage to improve the 8(a) and 
HUBZone programs. When small businesses win contracts, they 
scale up quickly and create good paying jobs. The result is a 
win-win for everyone.
    Just like contracting and lending, the SBA provides 
invaluable counseling services through its nationwide network 
of resource partners. They provide expert advice on how to 
develop a business plan, market a product, and sell their goods 
overseas. Despite the incredible success of the programs, the 
administration proposed to slash entrepreneurial development by 
a staggering $97 million or 36 percent. Helping small 
businesses succeed and educating the underserved and rural 
areas will require a real investment in SBA counseling and 
training programs, not cutbacks.
    I think it is safe to say we all agree that small 
businesses are a cornerstone of our economy and deserve our 
full support. However, that requires more than lip service. It 
involves a real commitment to invest in its program and 
programs that really work.
    With that, I look forward to hearing from the administrator 
regarding her priorities for the agency on the FY21 budget 
proposal.
    I now yield to the Ranking Member, Mr. Chabot, for his 
opening statement.
    Mr. CHABOT. Thank you, Madam Chairwoman. And thank you, 
Madam Administrator, for coming before us today to share your 
vision of the SBA moving forward.
    As most of I think people in this room know, we think this 
is the most bipartisan Committee in Congress. Both Ms. 
Velazquez and I have had the opportunity to lead this Committee 
in recent years, and regardless of who is in charge, we have 
worked together in a bipartisan fashion to advance the goals of 
America's small business community.
    Today, we have the opportunity to hear from the President's 
newest cabinet member, The Honorable Jovita Carranza, the 26th 
Administrator in the history of the SBA.
    Ms. Carranza was confirmed by the Senate last month by an 
overwhelmingly bipartisan vote, becoming the highest-ranking 
woman of Latin American heritage in the Federal Government.
    I have to say the President and the Senate got it right. I 
have had the pleasure of sitting down with our new 
Administrator, and I was impressed by her ideas on how to 
modernize and streamline the agency that is the only go-to 
resource and voice for small businesses backed by the strength 
of the Federal Government.
    Ms. Carranza brings a wealth of experience and a remarkable 
resume with her to the SBA. Her Federal Government experience 
includes her position as the Treasurer of the United States--
her name is literally on our money--as well as serving as the 
SBA's Deputy Administrator from 2006 to 2009 during former 
President George W. Bush's administrator.
    Before her work at the SBA, she had a distinguished 30-plus 
year career with UPS, the United Parcel Service, where she 
broke barriers as the highest-ranking Latina in the company's 
history after starting as an hourly dock worker. So, she worked 
her way up to the top.
    Following her UPS career and initial SBA service, she 
founded her own small business, the JCR Group, a consulting 
firm that focused on business development and optimization.
    Administrator Carranza, we want to thank you again for 
taking your time to be with us. I am looking forward to hearing 
your testimony and participating in the ensuing discussion.
    And thank you, Madam Chair, for holding this. And I yield 
back.
    Chairwoman VELAZQUEZ. Thank you, Mr. Chabot. The gentleman 
yields back.
    If Committee Members have an opening statement, we would 
ask that they be submitted for the record.
    I would now like to introduce our only witness today.
    Our witness is the Honorable Jovita Carranza, the 26th 
Administrator of the Small Business Administration. 
Administrator Carranza has an inspiring background. Born in 
Illinois to an immigrant family from Mexico, she began her 
career at UPS as a part-time nightshift box handler, ultimately 
rising through the ranks to become president of Latin America 
and the Caribbean operations. After a distinguished career at 
UPS, Administrator Carranza founded the supply chain company, 
JCR Group. In 2006, President Bush tapped her to become the 
Deputy Administrator for the Small Business Administration, and 
most recently, she was the Treasurer of the United States.
    Welcome, Administrator Carranza. You are recognized now for 
5 minutes.

    STATEMENT OF JOVITA CARRANZA, ADMINISTRATOR, U.S. SMALL 
                    BUSINESS ADMINISTRATION

    Ms. CARRANZA. Thank you very much.
    Good morning and thank you for inviting me to testify 
today.
    In the time we have today, let me share my priorities for 
the agency, and update you on my activities since being sworn 
in as the administrator of the Small Business Administration on 
January 14th.
    First, I would like to share with you some background on my 
work and life experiences which helped me shape these 
priorities, some of which you have already covered.
    As you may recall from our recent conversations, I was 
raised in Chicago, but my work career began in California as a 
single mother raising a child and working part-time loading, 
yes, trucks, for UPS.
    Over the years that followed, I was honored by public 
service opportunities in two administrations as SBA deputy 
administrator, as U.S. Treasurer, and now as a Cabinet Member. 
Throughout my career, I have seen the importance of small 
business to our economy and in communities across the country.
    This perspective guides me now in my focus and priorities 
at the agency. A top priority of mine is to continue the 
success of our Disaster Assistance program. Previously, as the 
SBA's Deputy Administrator, I helped create the first Disaster 
Recovery Plan, one that the agency still uses today. SBA plays 
a key role in helping disaster survivors recover from a 
disaster event. I can assure you that when a disaster strikes 
in your state or district, SBA is ready to help and will 
continue to be prepared under my leadership.
    Another priority of mine is to maximize our lending and 
Federal contracting opportunities and outreach to small 
businesses in underserved communities. It is imperative that 
SBA programs and services reach those that might not otherwise 
have access to capital, contracts, or counseling.
    In just my first month as Administrator, I have already 
taken steps to encourage a greater focus on entrepreneurs from 
underserved communities. First, I have been working with our 
Capital Access office to assess how we might grow our Microloan 
program and further its success. I know that this is a goal for 
many of you as well.
    I also have been working closely with our Contracting 
office to explore how we can exceed all our government-wide 
small business contracting goals and create further 
opportunities for minority, women, and veteran-owned small 
businesses.
    And I have been working closely with our Field Office 
leadership to ensure we are committed to our rural outreach and 
initiatives with HBCUs and minority-serving institutions. We 
need to reach those aspiring entrepreneurs, identify skill 
gaps, and help foster next-generation workforce.
    Another priority is to optimize our agency program 
operations. SBA programs and services need to be available, 
accessible, and successful for small business owners. If not, 
then we need to change things, and I am committed to do so 
without hesitation.
    One area of focus is with our SBIC program. We need to do 
better for those looking to invest in small businesses, and I 
am bringing an individual on Monday from the Treasury 
Department to help me objectively assess the program and 
identify areas for improvement.
    In the interim, I have prioritized staffing and outreach to 
better support program applicants and better identify future 
participants. Across the entire agency, I have looked at 
vacancies, and I am expediting hiring actions for critical 
staffing needs like those in our Field Operations. I have been 
meeting extensively with our contracting and IT offices to 
assess our recertification infrastructure. I know that this is 
essential for the small business contracting community.
    We will stand up our Women-Owned Small Business 
certification program in May, and as soon as possible we will 
complete our IT infrastructure enhancements to support all our 
certification programs. My message to our staff has been clear 
and direct--get it fixed and get it done.
    Finally, to support this examination of our program 
operations, one of my first meetings was with the SBA Inspector 
General. I developed a good working relationship with the IG 
and GAO in my previous positions, and I will continue that 
constructive engagement as Administrator.
    As I close, let me reflect again on my life experiences 
which frame who I am today and serve as a guide to my tenure as 
Administrator. It has been a rewarding journey to have been 
taught the value of a hard-earned dollar as a young girl and to 
later in life be able to sign my name on every U.S. dollar as 
Treasurer. Now, as SBA Administrator, I have the chance to work 
with inspiring men and women entrepreneurs that are so 
essential to our economy. Like so many of them, I am a product 
of hard work, mentorship, and opportunity. I bring that 
perspective to this new job and will be a tireless advocate for 
America's small businesses.
    Thank you, Madam Chairwoman and the members of the 
Committee. I look forward to answering any questions you might 
have.
    Chairwoman VELAZQUEZ. Thank you, Administrator Carranza.
    I will begin by recognizing myself for 5 minutes.
    Administrator, the SBA 2021 budget proposes an 18 percent 
cut to the overall budget and a whopping 37 percent cut to the 
entrepreneurial development programs. These cuts make it clear 
that we cannot--let me just say this. On the one hand we cannot 
say that this administration is for small businesses, that you 
care deeply about providing resources and enabling small 
businesses to take their businesses to the next step, and then 
on the other hand proposing a budget that basically renders 
inoperative many of the programs that are so crucial. So, in 
light of the huge tax cuts given out to big businesses, how do 
you reconcile these steep cuts with your stated priorities to 
help more women, minority, and veteran entrepreneurs?
    Ms. CARRANZA. One of the first things I did, Chairwoman, 
was to take the budget and meet with the CFO, as well as all 
the key stakeholders in the SBA program offices. And line by 
line, identified what was requested in 2020 and what was 
enacted and what was requested this time. And in particular, 
the Office of Entrepreneurial Development was of major concern 
because the SBDC--and I am not going to shy away from that 
particular figure because it is one that has realized a cut 
from 2020 request to the request in 2021--which is Small 
Business Development Centers. And to face it head on, I did 
attend their SBDC Summit to demonstrate to them that we were 
very serious about providing the support that they greatly need 
and that I am closely reviewing the budget and how we can 
explore opportunities for them to be just as effective with the 
$87 million.
    Chairwoman VELAZQUEZ. So where is the beef?
    Ms. CARRANZA. That is about a 13 percent reduction.
    Chairwoman VELAZQUEZ. So where is the beef?
    Ms. CARRANZA. Pardon me?
    Chairwoman VELAZQUEZ. You went to the SBDC conference. You 
talked to them. You promised them that you will provide the 
resources. As we see, this is a steep cut. Do you intend to 
discuss this priority with Mr. Mulvaney and say to him that 
this will affect the work and the mission of the SBA 
tremendously?
    Ms. CARRANZA. Chairwoman, what I did at the conference was 
to not only introduce my priorities and clarify that I was very 
much aware of the budget submission. What I was very encouraged 
about was that not only in the SBDC cuts but where did we also 
make an addition, an increase? And I was very encouraged at the 
veterans' outreach, which is really at the top of our 
priorities. But with the SBDC, I still must get close into the 
mechanics of how they are going to apply the budget.
    Chairwoman VELAZQUEZ. Thank you. Thank you for your answer.
    I just want to be very clear that I reject such a steep cut 
to this and that we will do everything within our power to 
fight that. We have done it before, and we will continue to do 
it. We cannot continue to add more responsibilities to the 
SBDCs, like cybersecurity and other legislation that we passed 
here and expect for them to do more with less. It sounds good, 
but it does not work. It did not work before. It will not work 
going forward.
    Ms. CARRANZA. I would like to look forward to coming back 
to tell you how we are going to manage that.
    Chairwoman VELAZQUEZ. Sure. In terms of the Disaster Loan 
program, Maria in Puerto Rico, the OIG report for Hurricane 
Maria revealed a lack of Spanish translators caused significant 
delays in the post-Maria response. What is your plan to make 
sure that there are adequate translators this time and in the 
future?
    Ms. CARRANZA. Chairwoman----
    Chairwoman VELAZQUEZ. Let us remind everyone, Members of 
this Committee, that the US territories are part of the United 
States and that in Puerto Rico, we have 3.5 Spanish-speaking, 
and we could have the best program, but if they are not 
provided in their own language it will not do any good.
    Ms. CARRANZA. Well, I want to assure you, Chairwoman, that 
I looked deeply into this issue of the IG--all IG and GAO 
audits. But in particular this one because we are still working 
with Puerto Rico. We have 90 staff people there. We have 16 
offices, and we have learned that a $50,000 bilingual software 
program or consultants was not going to meet the needs of what 
happened in Puerto Rico. So, they have invested, we have 
invested a $2 million contract to ensure that we can blow up or 
scale up to the level of need in Puerto Rico and I advise all 
other agencies to do the same.
    Chairwoman VELAZQUEZ. Thank you.
    Ms. CARRANZA. You are welcome.
    Chairwoman VELAZQUEZ. My time has expired, and now I 
recognize the Ranking Member for 5 minutes.
    Mr. CHABOT. Thank you, Madam Chair.
    Madam Administrator, as you know, President Trump recently 
signed a very important trade agreement with our neighbors, 
Mexico and Canada, the USMCA Trade Agreement. As the first and 
only U.S. trade agreement that maintains a distinct small 
business chapter, how will the SBA work with our neighbors to 
the north and south to ensure that American small businesses 
will benefit from increased access to both Mexican and Canadian 
markets?
    Ms. CARRANZA. That is a great question, Ranking Member 
Chabot. And I do not want to mess up names because I did that 
in my Senate hearing, so I want to make sure I am methodical 
and very deliberate about that.
    What I have learned at SBA, they have dedicated resources 
that are doing very significant and targeted and strategic 
outreach to banks to ensure that access to capital and 
understanding of the programs that we have in our Office of 
International Trade, and that we have a what you call a public 
and private partnership, more strategic. And so, they are 
ensuring that we make personal contacts on sites with these 
lending institutions.
    In addition to that, I have traveled between Pennsylvania 
to the harbor or the port I should say, in New Orleans to 
verify that small businesses are also getting a cut in any 
export growth or input growth. And when I say ``cut,'' they are 
part of the market.
    Mr. CHABOT. Part of it.
    Mr. CARRANZA. Yes.
    Mr. CHABOT. Not a reduction.
    Mr. CARRANZA. Yeah. Cut is probably not the most 
appropriate word. What I was pleased to see in New Orleans was 
that the ports are investing significantly. I saw four loading 
cranes. They are going to expand it to seven loading cranes. 
What really impressed me, and Chairwoman, you are going to be 
impressed with this, is that the cables that are serviced on 
those cranes are serviced by a woman-owned small business. So, 
as the exports grow, the equipment on the ports expand, and we 
are looking to ensure that small businesses have a role in 
that. So, I think it is going to be a win-win the more outreach 
and the more onsite visits we perform.
    Mr. CHABOT. Thank you very much.
    Small businesses have responded positively to President 
Trump's historic Tax Cuts and Jobs Act, which passed the House 
and the Senate a couple years back. Not only are small 
businesses better off these days with the small business 20 
percent passthrough tax provision but communities and small 
businesses also stand to benefit from opportunity zones.
    Under your leadership as administrator, what will you do to 
ensure small businesses are aware and take advantage of these 
beneficial tax provisions?
    Ms. CARRANZA. I believe there are 200 funding 
opportunities, throughout the entire Federal Government that 
are aligned to support the Opportunity Zone underserved 
markets. When I have spoken to, whether it is at the 8(a) 
conference or large groups of small business gatherings, I 
share that there are 8,700 tracks in the underserved market. We 
have HUBZone. We have Microloan lenders. We have the 
Opportunity Zones, and now we are looking at concentrating not 
only resources but appropriate funding for those communities. 
So, we are looking at it in an ecosystem other than just one 
program called the Opportunity Zone. It is how can we marry or 
align all others to reinforce, and that the small businesses 
are aware that they have an opportunity in those areas.
    Mr. CHABOT. Thank you very much.
    I think I have time for about one more question. So, let me 
ask you this.
    You have got a very impressive background, both in the 
government and in the private sector. How does your experience 
in the private sector, whether it is UPS or otherwise, you 
know, starting your own small business, how has that affected 
your ability to bring those skills, those resources to the 
public sector, and specifically now as our top person in the 
Small Business Administration?
    Ms. CARRANZA. The very early lessons that I learned in the 
private sector were understand the mission and align everyone 
to pursue that mission. Clarify it. So, communication is very 
key. I also worked with thousands of employees, which led to 
learning about developing strong teams, which is very necessary 
to really see the results. And there is also a need to measure 
impact. And so those are the three components that I am looking 
at--optimizing our resources, measuring their outputs, and 
making sure that we are meeting the needs of our stakeholders. 
We would say shareholders in the private sector, but in this 
case, it is our taxpayers and our small businesses.
    Mr. CHABOT. Thank you very much. My time has expired but on 
behalf of I think Members on both sides of the aisle here, both 
Democrats and Republicans, we look very much to working with 
you and making sure that your time as top SBA official is 
successful, so we want to work with you.
    Ms. CARRANZA. Thank you very much.
    Mr. CHABOT. Thank you.
    Ms. CARRANZA. I look forward to it.
    Chairwoman VELAZQUEZ. The gentleman's time has expired.
    Now we recognize the gentlelady from California, Ms. Chu, 
Chairwoman of the Subcommittee on Investigations, Oversight, 
and Regulations, for 5 minutes.
    Ms. CHU. Administrator Carranza, I would like to touch on 
the ongoing outbreak of COVID-19 or the 2019 novel coronavirus, 
which has had a negative impact on the small businesses in my 
district in Los Angeles. My district has one of the largest 
Chinese-American populations in the Nation, and I have heard 
firsthand of xenophobia directed at Asian-Americans and in 
avoidance of Asian-American owned small businesses, especially 
restaurants, but based on misinformation about the disease.
    And just as some examples, when this first started 
happening, there was a flyer that was handed out, and you can 
see here it has a gigantic ``fake'' on it because it actually 
dared to have the locals of the World Health Organization, the 
County of Los Angeles, and then said that there was a 
coronavirus outbreak and named five small businesses to avoid. 
But it was totally fake. And yesterday, CNN did interviews and 
articles with a restaurant in New York's Chinatown and it 
showed that it had no customers despite the fact that there 
were zero cases of novel coronavirus in the state of New York. 
And in fact, the restaurant owner said that now her restaurant 
is suffering a 70 to 80 percent loss of business. This is 
actually pretty typical of many of the Asian restaurants, 
certainly in my area, that caused us to have a press conference 
to say there is a lot of misinformation going on. Please do not 
believe it.
    The fears are misguided. The U.S. CDC says at this the 
virus is not currently spreading in the community of the united 
States and dispels many of the myths that are out there.
    So, Administrator Carranza, I think that the SBA can play a 
very, very important part in combatting this misinformation and 
supporting the small businesses that have been unfairly 
targeted. Would you consider offering an official statement 
urging SBA's resource partners and audience to combat the 
spread of misinformation that has resulted in xenophobia 
echoing what the official comments of the U.S. CDC is about the 
truth of the coronavirus?
    Ms. CARRANZA. Congresswoman, I will do something better. I 
have already called on my Disaster Assistance Preparedness 
leader to hold a conference with all of SBA on Friday. We are 
going to assemble a steering committee to anticipate what role 
can we play, and you have already stated, we can serve as a 
communicator. We have 1,000 offices. We have 2,000 executives, 
so we definitely have a strong voice and support communicating 
the truth and being very timely about it. So, on Friday we are 
going to address, as if we had a disaster, what proactive 
measures can we take. You know, what essential staff do we need 
to identify? Because our first concern is our employees and 
then our businesses and then, of course, any mandates that we 
have from the Administration.
    So, I look forward to working with you, especially the 
California perspective. And so, I look forward, again, to 
coming up with a strategy. But I agree. I think SBA could play 
a significant role, so much that we are going to launch a 
meeting on this Friday, this week. And we will keep you posted.
    Ms. CHU. Well, thank you. Yeah.
    Ms. CARRANZA. You are welcome.
    Ms. CHU. Thank you for that timely response, and hopefully, 
a statement can come out of it that dispels the misinformation.
    Well, thank you for that. And let me also say that one of 
the most pressing issues for our small business owners and 
entrepreneurs in my district is access to in-language services 
and materials. Too often, immigrants and non-native speakers 
are simply unaware that the SBA offers services like 
entrepreneurial development programs at no cost to them. So, I 
am encouraged that the agency improved its Spanish language 
offerings, but in districts like mine there are communities 
that are rich with entrepreneurs whose primary language is 
Chinese, Korean, Vietnamese, and other languages. So, can you 
discuss how SBA plans to improve language access, particularly 
for these other languages in its written material services and 
outreach?
    Ms. CARRANZA. I know that our Office of Entrepreneurial 
Development has a library of languages that are available. I 
cannot tell you exactly which ones, but they are in the teens. 
So, what I do know at this point, and it is evolving, is our 
lender match, which is really access to capital, which is 
really key for small business. That is going to launch in 
Spanish so that they can identify a potential lender match 
within 48 hours. So, I will add other languages to that, and we 
will report back to you. At this point, I do not know what is 
in the queue as to what other languages, but Spanish is being 
launched very soon.
    Chairwoman VELAZQUEZ. Time has expired.
    Ms. CHU. Thank you.
    Chairwoman VELAZQUEZ. The gentlelady yields back.
    Now we recognize the gentleman from Minnesota, Mr. Stauber, 
Ranking Member of the Subcommittee on Contracting and 
Infrastructure, for 5 minutes.
    Mr. STAUBER. Thank you very much, Madam Chair.
    I am the Ranking Member of the Contracting and 
Infrastructure Subcommittee. The Chairman of that Committee is 
Congressman Jared Golden. He and I have heard from small 
businesses across the country of some of the challenges that 
they face with the Federal procurement space.
    A couple of questions. What is your vision for improving 
contracting opportunities for our small businesses? And then, 
what is your strategy moving forward to ensure that we 
eliminate much of the fraudulent behavior or detecting and 
removing ineligible firms from our contracting programs?
    Ms. CARRANZA. Those are discussion topics that I have had 
since the first week I arrived, government contracting, because 
of the WOSB and Certify.gov issues in technology and 
transparency; and also because there are discussions about the 
safe and soundness and fraudulent situations that have 
occurred. I inquired as to the schedule of reviews, and I have 
been told that typically they will review about 500 of those 
certified firms. They may find about 12 firms that are crossing 
the line and require further review, so I know that we have a 
strategic team that is looking at that but I think we can 
provide better solutions from an automation perspective where 
we can detect issues early on. Right now it is a latent process 
where it is all manual and it is a particular group of firms 
that are reviewed, and I need to get further involved in 
exactly how that is processed so I can be a little bit more 
thorough with you. But I do know that they have systems in 
place but are they sufficient is the question.
    Mr. STAUBER. And I think that you know that any time a 
small business does not get the contract because of fraudulent 
applications that it is a considerable insult to the small 
businesses because we have to be the protector of the small 
businesses and your agency has to be a part of it as well.
    Ms. CARRANZA. Yes, Congressman, there is a protest process 
and it is exercised. The timeliness is one thing. The other a 
loss of revenue and that is what I am targeting. Any time we do 
not detect an issue, we are preventing or impeding job growth 
and wage growth and fairness in the system.
    Mr. STAUBER. And a couple of other comments. The access to 
capital is really, really important for our small businesses. 
As I go through Minnesota's 8th Congressional District, rural 
district in northern Minnesota, that is one of the number one 
things they talk about is the access to capital, making it a 
bit more easier for them to attain that capital, and I think 
that is extremely important.
    The last comment or question I will have is, Administrator 
McMahon visited all 68 SBA district offices in the 50 states. 
Do you anticipate you will continue that legacy of cross-
country outreach?
    Ms. CARRANZA. Let me share that I had a town hall meeting 
with my workforce the second week I was there and I was asked 
that question by my districts like, are you going to do, and 
they reiterated what you indicated. And I said no, because my 
goal within these short months is to cover every region and 
small businesses within those regions, like either government 
contracting or in trade, so I am going to be very strategic. I 
do not want to falsely say that, yes, I am going to visit all 
68 districts. I am going to visit the 10 regions and I am also 
going to visit the small businesses that have strategic needs, 
whether it is trade, whether it is Puerto Rico. I have a plan 
to travel to Puerto Rico. I have a plan to travel to the Port 
of Miami, and so I will visit small businesses there. So, my 
visits are going to be very strategic and multifaceted. But my 
outreach is going to be very healthy.
    Mr. STAUBER. Administrator, would you commit to Minnesota?
    Ms. CARRANZA. Absolutely. Thank you, Congressman. Yes.
    Mr. STAUBER. Thank you.
    Ms. CARRANZA. After New York and after Puerto Rico. Thank 
you.
    Mr. STAUBER. Thank you, Administrator, for your time, and I 
really appreciate it.
    Ms. CARRANZA. And Ohio and Iowa.
    Mr. STAUBER. And I appreciate your leadership in many areas 
of not only private business but our Nation as well.
    Ms. CARRANZA. It is a real honor. Thank you.
    Mr. STAUBER. Madam Chair, and I yield back.
    Chairwoman VELAZQUEZ. The gentleman yields back.
    Now we recognize the gentlelady from Kansas, Ms. Davids, 
for 5 minutes.
    Ms. DAVIDS. Thank you, Chairwoman. And thank you for being 
here to testify today, Administrator. I look forward to working 
with you to make the SBA the best possible agency that it can 
be.
    So, I was happy to see in your testimony an emphasis on 
increasing and improving counseling services for accessing 
capital for women and minority entrepreneurs. Those are major 
priorities of mine and I will take my time today to focus on 
those critical areas.
    So, I represent the third district in Kansas. I do not know 
where we are in the queue for a visit, but Ms. Finkenauer and I 
were just talking about a Midwest swing, so we would welcome 
you there.
    So we are, in addition to the vibrant entrepreneurial 
ecosystem that we have in the Kansas City Metro area, my 
district is home to the Women's Business Center. It is located 
in Fairway, Kansas. That is the Women's Business Center for the 
State of Kansas, and it does a little bit of work across the 
border with our neighbor, Missouri.
    The WBC, as many folks know, and I know you are aware, does 
counseling for women business owners and entrepreneurs, and I 
am doing everything that I can to help be supportive of that 
program. In fact, Congressman Hagedorn and I introduced the 
Women's Business Center Improvements Act of 2019 to make sure 
that we increase the support for the Women's Business Centers.
    So, getting to the question here, with the importance of 
that type of program, I was a bit disappointed to see that in 
the President's proposed budget there were cuts to 
entrepreneurial development programs, including a 23 percent 
cut to the WBC program. I guess I am curious, how do you plan 
to support these important programs like WBC's Small Business 
Development Centers Regional Innovation Clusters given the 
stance of the administration and the cuts that were proposed in 
the budget that was sent over?
    Ms. CARRANZA. Thank you, Congresswoman.
    Based on the numbers, I may be incorrect, but I believe 
that what was requested in 2020 for Women's Business Centers 
was $17.4 million and we requested the same amount. What was 
enacted and requested is the difference that you are 
highlighting.
    But at this time, because my focus, and I said it in my 
opening statement and when I was in the nomination process and 
when I met individually with the Chairwoman and her committee 
members, as well as the Senate, the focus is women. Women right 
now reflect for the past 2 years, especially in 2019, we have 
exceeded the male workforce for the first time. And that is a 
significant fact. The other is that our trajectory of small 
business growth happens to be very strong in the women. So, as 
a result of that, and I know that our staffing on the Women's 
Business Centers is being reviewed. I am conducting interviews 
to identify a very talented candidate to run those centers so 
that we can be responsive and relevant to our communities, 
Kansas being one.
    I visited three women's businesses in the STEM area. An 
architect in the STEM area, an architect, and an engineer; each 
one of them had their business development specialist from the 
SBA District Office, and they said, I do not know where I would 
be without this support. So, I know that that outreach, the 
handholding is very essential.
    But let me share what I learned in Pennsylvania. I visited 
a woman who took over her family's business, four restaurants, 
wanted to expand by two restaurants. Got an SBA loan for $2.4 
million to expand with the potential of hiring 150 employees. I 
said this is a win-win proposition. I asked her what other 
services has she accessed? She did not know about Women's 
Business Centers. She did not know about SBDCs, and she did not 
know about SCORE. So, we immediately connected her with them. 
That happens too often. And when I speak to Hispanic women 
business owners and ask how many of you have accessed the 
resource partners or the services and products of the SBA, 
maybe a third of them will say yes. And I said that is too few. 
And so, I lead the sba.gov, that is my new name. But I am 
agreement with you, and I look forward to working with you on 
how, if you have some recommendations, how more we can exploit 
that opportunity for women.
    Ms. DAVIDS. Thank you very much. Thanks for your response. 
And I am sure our office will be reaching out to you so that we 
can continue the conversation.
    Ms. CARRANZA. Okay. Very good.
    Ms. DAVIDS. I yield back.
    Chairwoman VELAZQUEZ. The gentlelady yields back.
    Now we recognize the gentleman from Florida, Mr. Spano, who 
is the Ranking Member on the Subcommittee on Investigation, 
Oversight, and Regulations.
    Mr. SPANO. Thank you, Madam Chair, very much. I appreciate 
that. And thank you, Administrator Carranza, for being here 
with us. And good luck in your responsibilities, and I am sure 
you are going to do a great job. I know it is a lot to take in.
    You were formerly the Deputy Administrator of the SBA, so I 
guess my first question to you is can you share with us what 
you learned as deputy administrator that coming in you are 
like, all right, this is what I learned on the ground as Deputy 
Administrator that I am going to implement or I am going to do 
or I am going to focus on or an attitude that I am going to 
come into this with. If you could share that with us, please.
    Ms. CARRANZA. Well, I was very encouraged that what we 
worked very hard at improving, which was government contracting 
for small businesses, had taken a very positive trajectory the 
past 10 years or so. So, we did not lose a lot of ground there. 
I was very encouraged there. That the focus for women finally 
took hold and that we have now very concrete systems in the 
government contracting, such as WOSB and certify.gov. So, we 
are looking at ways of engaging and interacting digital-wise. 
So, we are becoming much more automated. That was a win-win 
because we were so archaic back them.
    The other focus is that every office is looking for more 
efficient ways of providing the services and products. For me, 
it is the taxpayer impact, the return on investment, and I 
believe that every office at SBA is very committed to doing 
that.
    We have exceptional institutional knowledge at SBA. We have 
employees that have been there 10, 20, 30 years that are 
technocrats when it comes to government contracting, SBICs 
(Small Business Investment Corporations), access to capital, 
every kind of loan portfolio you can think of, microloan. So, I 
am just very enthused that no one has taken their sights off 
the mission, which was really to develop and strengthen, start, 
grow, and expand small businesses.
    Mr. SPANO. Thank you. I appreciate that.
    Then, when we met several weeks ago now it has been, we 
were introduced.
    Ms. CARRANZA. Yes.
    Mr. SPANO. It is amazing how quick time flies.
    But I mentioned a concern that I had with respect to the 
veteran-owned small business set-asides for government 
contractors, and I spoke to one of your staff members about, at 
least as it was explained to me, that when an application for a 
contract is submitted, or maybe it is in the process of 
becoming qualified, you verify, or you do not even verify, you 
state that you are a veteran-owned small business, and then at 
that point it is referred when the contract is awarded, if I am 
not mistaken, to the small business, and then it is the Small 
Business Administration's then job or responsibility to verify 
or confirm or do the legwork to ensure that that is, in fact, a 
veteran-owned small business.
    I had, as I shared when we met last, I had a gentleman I 
met with from my district, a veteran-owned small business, and 
at least it was his position that he characterized it as stolen 
valor. He said there were individuals who were just stating, 
hey, I am a veteran-owned small business and they are getting 
contracts. And, you know, there are three sides to every story 
usually; right? What I want to make sure is that if I can maybe 
get some follow up on the issue, I would love to have some 
confirmation so when I get confronted with constituents, and 
particularly this gentleman, that I can say, no, we are 
ensuring that the veteran-owned small businesses that are 
applying for these set-asides are, in fact, veteran-owned small 
businesses and that they are not being used by individuals 
unscrupulously, fraudulently. You know, that they really are 
being set aside for the people that we intended them for.
    Could you just speak to that for a moment?
    Ms. CARRANZA. Yes, Congressman. I took heed to every 
member's concerns for the veterans contracting. And so, I think 
it is in a week, if not 2 weeks from now, I will be attending a 
veteran's conference. I will be articulating all the changes 
that we are making, the resources that we have identified, the 
systems that we are reevaluating. And then, of course, target 
these particular issues. I am not the type of person, nor is 
anyone in the Government Contracting Office, shy from admitting 
that we have shortfalls, and then also be transparent enough to 
discuss, and these are our action plans to correct. So, before 
I attend that conference, I will share the information with the 
members here.
    Mr. SPANO. Well, I thank you for that, and I appreciate 
your commitment to look into that and trying to resolve those 
issues if, in fact, there are problems there.
    And I yield back.
    Ms. CARRANZA. Yes.
    Chairwoman VELAZQUEZ. The gentleman yields back.
    Now we recognize the gentlelady from Iowa, Ms. Finkenauer, 
Chairwoman of the Subcommittee on Rural Development, 
Agriculture, Trade, and Entrepreneurship for 5 minutes.
    Ms. FINKENAUER. Thank you, Madam Chair. Happy to be here, 
and also happy to have you here, Administrator Carranza. It 
means a lot to be able to talk about these issues that matter 
so much on our Committee here.
    And as the Chairwoman said, I am the Chairwoman said, I am 
the Chair, or the Chairwoman of Rural Development, Agriculture, 
Trade, and Entrepreneurship, one of our Subcommittees, the 
right Committee. I joke that next year we need to add Growth to 
it, and we can be the Great Committee because it is something 
that matters a lot to my state in particular, especially when 
it comes to trade.
    I am from Iowa, and Iowa's 1st Congressional District, and 
I wake up thinking about trade. I go to bed thinking about 
trade. In the middle of the day I am talking about trade, 
especially, again, after the last 18 months that our state has 
been through given some of the decisions from this 
administration. I will go into that a little bit more later.
    But I do want to highlight something that has been really 
important to me and also to our Ranking Member, my Republican 
colleague, Dr. Joyce, as well. We have been fighting really 
hard to actually increase the funding for the Small Business 
Administration's entrepreneurial development programs. We 
actually brought 47 members together, both Republicans and 
Democrats, to request funding, and we succeeded in that. These 
programs have bipartisan support and I will be frank, I was 
shocked to see the Trump Administration decided to slash this 
budget and funding for fiscal year 2021. I was especially 
surprised to see that nearly 60 percent was cut from the State 
Trade Expansion Program. See, the STEP program is something 
that matters a great deal to my state and to states all across 
the United States, but very again specific to Iowa. When we 
have been getting hit on all sides, especially our farmers, 
from again, this ongoing trade war with China and uncertainties 
in markets, I mean, I have had farmers into my office telling 
me that they are looking at filing for bankruptcy, dipping into 
401(k)s. We had a woman testify saying that she is telling her 
three sons not to go into farming because she is so worried 
about their future. On top of that, our ag economy in Iowa and 
our manufacturing are very closely tied together. So, if our 
farmers are not doing well, they are not buying John Deere 
tractors, which are made in our district, and John Deere is not 
then working with our local contractors, also small businesses 
in my district. This is, again, why I wake up thinking about it 
and go to bed thinking about it.
    And so on top of all of this, you know, this is a time when 
we should be caring about making sure that our small businesses 
have access to foreign markets and making sure that our small 
business administration has the tools that they need and the 
funding that they need to be able to provide that access or to 
provide that support for our small businesses.
    So, you know, this is again something that we have been 
highlighting. We have been working across the aisle on. It is a 
program that was developed by Democrats, funded by Republicans, 
and then a Democrat and Republican have sat here this last year 
trying to make it better. It is not a perfect program. We saw 
actually inefficiencies that were not working well, whether it 
was some of our states, especially in Iowa, not being able to 
get the programs being required or they would issue a request, 
not hear back. I mean, there were deadlines not being hit by 
the Small Business Administration. These were things that we 
should fix, and that also I realize does require funding to 
make sure that we have the right folks there being able to fix 
this and make these programs work like they should. These are 
being used.
    We held a hearing--actually, not a hearing but a roundtable 
in my district where we had a gentleman named Ryan show up. He 
works with Marion Process Solutions, and they have been using 
STEP since 2015 and actually, in 2019, were actually able to 
use it to launch a new technology at an international trade 
show in Nuremberg, Germany, in April of 2017. This is the time, 
again, when we need to be investing, not cutting. And my 
question, especially when it comes to this program, and I know 
hearing about the agency's strategic plan to increase the value 
of small business export sales, how do you intend to do that if 
we are cutting STEP's funding by $11 million? How do you intend 
to increase the value----
    Ms. CARRANZA. I have a question. I am sorry. Oh, I am 
sorry. No, I do have a question.
    Ms. FINKENAUER. Yes.
    Ms. CARRANZA. The focus that I have had is not only the 
budget but where it is going to impact performance and what do 
we have to do to rectify this perception that we are not going 
to be overall effective at SBA as a result of this current 
budget. We have operating expenses and we have grant programs, 
and the grant programs I have learned historically are 
appropriated or they are statutory or they are not a firm 
fixture, unfortunately. Some have. And so, I am looking at ways 
of how we can efficiently and more effectively provide the 
services and products. At the same time, work with this budget 
without compromising any of the services that you are referring 
to. The STEP program is active.
    Ms. FINKENAUER. Eleven million is quite a bit to cut 
though; correct? I mean, the program started with 18 million. 
We were able to plus it up to 19 million, and now 11 million is 
going to be cut from it.
    Ms. CARRANZA. What I am looking at is that there are only 
two programs that have experienced a request reduction, and it 
is not significant. You know, a million here. You know, when 
you look at the budget overall, we will be able to manage all 
the services, keep the staff that we have, revisit the staff 
that we are contemplating bringing on board. It is an overall 
evaluation and I look forward to getting back to you once I 
have a deeper dive in every one of these indices.
    Ms. FINKENAUER. This again, I will tell you again, coming 
from Iowa, this is another it feels like a slap in the face 
from this administration when it comes to trade and what our 
state has gone through when, again, we need to be investing, 
making sure that our folks have more markets. And what we have 
dealt with in our state has been devastating.
    Ms. CARRANZA. But Congresswoman, we have over $800 million 
dedicated to providing services and products to small 
businesses.
    Ms. FINKENAUER. And trade is incredibly important. And I am 
not happy to see the 11 million be cut.
    Ms. CARRANZA. Absolutely. Yes.
    Ms. FINKENAUER. I understand my time is up. Thank you, 
Chairwoman.
    Chairwoman VELAZQUEZ. Time has expired. Yes.
    Now, we recognize the gentleman from North Carolina, Mr. 
Bishop, for 5 minutes.
    Mr. BISHOP. Thank you, Madam Chair.
    Mr. CHABOT. Would the gentleman yield for just a moment?
    Mr. BISHOP. I certainly would.
    Mr. CHABOT. I appreciate the gentleman yielding.
    Just to clarify a couple of things that have been 
mentioned, and I do not want to take much of the gentleman's 
time. But we have talked this morning, and the gentlelady from 
Iowa was just talking about cuts in the President's budget.
    Every administration puts out a budget. They are 
suggestions. We oftentimes hear the term ``dead on arrival.'' 
By the time Congress gets done with these things, we very 
seldom cut anything. We have got a $23 trillion debt hanging 
over our heads. The President is making an attempt to actually 
be responsible, but by the time we get done with this, these 
will all be plussed up and maybe some things will be----
    Chairwoman VELAZQUEZ. Will the gentleman yield?
    Mr. CHABOT. Well, it is his time but----
    Chairwoman VELAZQUEZ. Okay, would you yield?
    Mr. BISHOP. To the Chairman? Chairwoman? Yes, I will.
    Chairwoman VELAZQUEZ. We want to be responsible. The 
President wants to be responsible. Why pass a trillion-dollar 
tax cut that favors big corporations and small businesses are 
an afterthought? That is being responsible?
    Mr. CHABOT. Would the gentleman yield again?
    Mr. BISHOP. I am not sure I am going to get to ask much 
today. I certainly will yield to the Ranking Member.
    Chairwoman VELAZQUEZ. Thank you for yielding.
    Mr. CHABOT. Thank you.
    Larger businesses did get their tax cuts. Small businesses 
got their tax cuts. Eighty-five percent of the American people 
got their tax cuts.
    Chairwoman VELAZQUEZ. Sunsetted. They will expire 2025.
    Mr. CHABOT. I know my colleagues on the other side of the 
aisle like raising taxes. We like cutting taxes. It helps the 
economy. But getting back, I will yield back.
    Mr. BISHOP. Reclaiming my time.
    Mr. CHABOT. We will see where these all wind up by the 
time----
    Mr. BISHOP. I thank the Chairman and the Ranking Member, 
and I may not get an opportunity to do much more than express a 
concern, I will connect it to the conversation in saying that 
we can do just as much devastation and thoughtless regulation 
as we can by inadequate appropriations.
    Chairwoman VELAZQUEZ. Would the gentleman yield?
    You will have one minute more.
    Mr. BISHOP. Thank you, Madam Chair. And I certain will 
then.
    I am sorry; were you asking me to re-yield again, Madam 
Chair?
    Chairwoman VELAZQUEZ. Just to let you know that I am 
extending your time.
    Mr. BISHOP. Oh, thank you. Thank you, Madam Chairman. I 
appreciate that.
    I wanted to focus a moment on a topic that is important to 
my congressional district. I have mentioned before how 
important the poultry farming industry is in North Carolina 9. 
The 2017 U.S. Agricultural Census ranks my district 29th in 
total sales of poultry at more than $1.5 billion, more than 
1,500 producer farms in my district.
    The SBA Inspector General has created sort of a great deal 
of uncertainty by suggesting that poultry farms are ineligible 
for 7(a) loans because of the agency's affiliation standards, 
i.e., affiliations between small farmers and integrators that 
produce poultry. And on February 10, a final interim rule was 
published. And I am glad it does not explicitly eliminate 
poultry farms from 7(a) eligibility, and in fact, the final 
interim rule explicitly said it was not the SBA's intent to do 
that, to eliminate lending to poultry and other livestock 
farms. But I am concerned that SBA chose to reinstate a 
standard that had previously been removed just in 2016 because 
this totality of the circumstances rule was so vague that it 
created uncertainty and potentially chilled that area of 
lending.
    I can tell you that one of the most hard-pressed forms of 
small business is a small livestock farmer who is under market 
circumstances working with an integrator. And I guess I would 
just say, because I think I have got to reduce my questions or 
condense them here, Madam Administrator, I want to sensitize 
you to that issue because we are still supposed to be doing 
poultry lending, poultry farmer lending I understand, but I am 
concerned that there has been created so much uncertainty and 
vagueness in the standard under the rule that it will be 
untenable for lenders to do that. And I would like to know 
whether you are focusing on that and whether you have a plan to 
make that a tenable area of SBA lending.
    Ms. CARRANZA. Thank you, Congressman.
    One of the first topics that was discussed or reviewed with 
me before I went through my nomination was the poultry issue. 
And since then I have been brought up to speed. I understand 
that the 7(a) program and lending opportunity is still 
appropriate and still available, and it was more about the 
independence between at that point it was the chicken industry 
that we were referring to and also the chicken farmers. So it 
is about protecting the chicken farmers and their ability to, 
as they access capital, that they have the independence and the 
ability to repay and so that the industry is not demanding or 
having more control than necessary that would influence or 
impact. So, it is a fairness issue, and I would look forward to 
discussing with you in your office exactly how we are 
approaching this. I believe that there is still a 60-day 
comment period available and so it goes into effect a couple of 
weeks from now but there is a 60-day comment period so that we 
can have greater input. I look forward to working with you on 
that.
    Mr. BISHOP. Thank you, Madam Administrator. And I look 
forward to being in conversation with you on an ongoing basis 
about that issue. It is a critical one, and these are hard-
pressed small businesses that need to have access to capital.
    And thank you for the additional time, Madam Chairman, and 
Ranking Member. I yield back.
    Chairwoman VELAZQUEZ. You are welcome. The gentleman yields 
back.
    Now we recognize the gentleman from Maine, Mr. Golden, 
Chair of the Subcommittee on Contracting and Infrastructure.
    Mr. GOLDEN. Thank you, Madam Chair.
    Last month, the Committee held a hearing to review the 
operations of the Office of Field Operations, and we are aware 
that the historical FTE count for the office has approximately 
been 800 employees. Today, that stands at about 690. Looking at 
the President's budget proposal, it requested more funding for 
the salaries and expense account. And I wanted to ask if that 
is going to be targeted toward increasing staff in the Office 
of Field Operations.
    Ms. CARRANZA. Congressman, the quick answer is yes. I have 
about 160 people in the pipeline right now to be considered for 
employment. The priorities are in the field offices, as well as 
one other targeted program office.
    Mr. GOLDEN. Thank you very much.
    Ms. CARRANZA. You are welcome.
    Mr. GOLDEN. I appreciate that. And obviously, when you are 
able to, could you send any of that, a summary of how you 
expect to spend those priorities?
    Ms. CARRANZA. Yes, absolutely.
    Mr. GOLDEN. Thank you.
    Ms. CARRANZA. As a matter of fact, some of the priority 
offices that we have discussed today have a weekly update, and 
I would be glad to share any progress reports with you.
    Mr. GOLDEN. We would like to see that. Thank you.
    Just following up on the field aspects a little bit. I 
represent Maine. I have the second most rural district in the 
House of Representatives and the largest east of the 
Mississippi River. It is a big territory. Rural America 
encompasses about 72 percent of the Nation's total land and 
about $46 million residents. We all know it plays a critical 
role in our economy. Recognizing this, Congress established the 
Office of Rural Affairs at SBA in 1990, but it was not until 
the middle of last year that the office received a director, 
essentially going over 20 years without any attention 
whatsoever. So that is not to blame this on the Trump 
Administration but rather many administrations under the 
leadership of both parties, as well as a failure on the part of 
Congress to pay attention to what it clearly identified as a 
priority in the 1990s, and it is no less a priority than today.
    Now, that was a new position, the director for this office. 
It was staffed only after members of this Committee and others 
in Congress sent a letter pointing out this discrepancy between 
the statute and the reality. Director Michelle Christian was 
appointed in August of 2019. Our Committee has been sending 
letters over to SBA asking for details about how we plan to use 
the office and the position. I have had the director in my 
congressional district.
    If you go to the website and look at some of the proposed 
work, there is a real emphasis on opportunity zones and helping 
businesses maximize that opportunity. That is, I think, 
absolutely great, but it is not nearly enough. I think it falls 
far short of what that office should be capable of doing to 
help small businesses. In fact, I have been working on 
legislation to allow opportunity zones that are not getting 
invested in rural communities to be moved. You know, Democrats 
here at not all opposed to tax opportunities and incentives 
where we see that it makes for good policy. But I have also 
written legislation to reauthorize Small Business Development 
Centers. There are great sources out there that rural Americans 
pay taxes. They pay taxes that create these programs and they 
deserve to know that they exist and that there are free 
services there to help business owners and entrepreneurs in 
rural America.
    So, this is just a long way of asking, what are you going 
to do with this office? What kind of resources are you going to 
give it? Because from August of 2019 up until now, there is 
only the director and some part-time assistants. The 
President's budget requested nothing for the office whatsoever. 
It looks as though to me they responded to a request from 
Congress and this Committee to prioritize rural America, but 
they have not followed up to show how they are actually going 
to make it a priority. So, I am asking you how you envision 
using this office? What kind of resources are you going to give 
the director? Because if there are none, it is like setting 
her, I, and the office up to fail.
    Ms. CARRANZA. Congressman, I agree with the focus on the 
rural. I made reference to it in many of my conversations that 
rural and underserved women, veterans, broadband in the rural, 
is very necessary. I understand there has just recently been 
some significant investments in broadband in the rural area, 
and we have done the same at SBA, not from a technical 
broadband perspective but support. And what I am looking at, 
and I am going to answer your question in two manners. Yes, 
Michelle Christian is a dedicated resource to rural, but she is 
not the sole individual. We have, you mentioned 690 people in 
the field. I am planning to augment their role by also adding 
rural as part of their portfolio which has been ignored since 
1990. And there is a great need.
    I am also looking at when there is a district office that 
either the lease is out or we have to revisit, should that 
particular district office be there, or a resource partner 
office be open closer to a rural area? Because now that is a 
focus and that has not been in the past, so I am kind of 
redirecting resources to ensure that rural is a priority. And 
every District Director, if you want to check, has rural as an 
indices to track.
    Mr. GOLDEN. Thank you very much.
    Ms. CARRANZA. Thank you.
    Chairwoman VELAZQUEZ. Time has expired.
    Now we recognize the gentleman from Tennessee, Mr. 
Burchett, for 5 minutes.
    Mr. BURCHETT. Thank you, Chairlady, and Ranking Member. And 
I will try not to say anything that I will need to be 
interrupted by anyone. I will just ask you some straight-up 
questions. Thank you, ma'am, for being here.
    I was county mayor for 8 years. I was in the state 
legislature back in Tennessee for 16 years. And we cut 
programs. We cut things and I understand. You cut duplication, 
things are antiquated, and it seems like especially in county 
government, every one of those has a constituency and it is 
generally a county commissioner's cousin or something like that 
that is involved with it. And why are you cutting their 
program? And I understand that.
    But can you explain what some of the top objectives are to 
help decrease duplication in programs across the SBA and other 
government agencies?
    Ms. CARRANZA. I appreciate the question, Congressman. And I 
am glad you pointed out that you were a former mayor because I 
believe that we can do a better job of integrating our 
resources and our efforts with mayors and governors.
    I attended an event with mayors, about 100-plus mayors, and 
then also, and women mayors, to see what kind of reinforcement 
they needed, support and knowledge with SBA. I also had two 
roundtables with governors, and their top of mind subject was 
small businesses. And so, I believe that if we can optimize 
public-private relationships, we do not have to add more brick 
and mortar that we cannot support. So, redundancy is an issue 
for us.
    If we have strategic collaboration with the other agencies 
such as HUD, such as Commerce and whatnot, we can do a lot more 
with a lot less. So, I look at efficiencies in scale. And I am 
also looking at the talent that we are bringing on to SBA so 
that they can be more visionaries and have greater capacity to 
align themselves with the needs of a market.
    I look at, and I shared this with the staff, the GDP of 
small business is almost $11 to $12 trillion a year, and so we 
have to be better at servicing that kind of GDP in the United 
States, and that is my goal.
    Mr. BURCHETT. Okay. Well, and this is, I guess, the 
million-dollar question. What can we do as Congresspeople to 
remove some of the roadblocks that are placed in the way of 
small business and your administration?
    Ms. CARRANZA. Well, that is a very loaded question because 
I do not know which roadblocks I am facing right now but I am 
sure I will be working with your office if I approach some. But 
I believe it is a matter of working together in a very 
bipartisan way which I believe this Committee does really, 
really well. Small business is big business. And Congress can 
always look at ways that small businesses have a seat at the 
table when working on trade or working on legislation, that we 
should always be at the table, especially when we contribute 
that significant amount of GDP.
    Mr. BURCHETT. Okay. I am going to run out of time. But 
specifically, dealing with entrepreneurial development, how 
will your office enforce accountability of the SCORE program 
and the reform efforts at the SBA and at the SCORE Association?
    Ms. CARRANZA. That has already begun, Congressman. I have 
reviewed some of the metrics that have been further developed, 
as well as the reporting mechanism. That is to say, not only on 
paper and online but on site. In other words, reporting to the 
individual, the AA who is responsible for those resource 
partners.
    Mr. BURCHETT. Thank you, Chairlady. I yield back 1 minute 
and 5 seconds if you and the Ranking Member want to battle it 
out a little more.
    Chairwoman VELAZQUEZ. The gentleman's time has expired.
    Mr. BURCHETT. Please go ahead on my time.
    Ms. CARRANZA. Thank you, Congressman.
    Chairwoman VELAZQUEZ. The gentleman's time has expired.
    Now we recognize the gentleman from Minnesota, Mr. 
Hagedorn, for 5 minutes.
    Mr. HAGEDORN. Thank you, Chair, and Ranking Member. It is a 
pleasure to have you here, Administrator. It is nice to see you 
again.
    I want to follow up just a little bit on what 
Representative Davids said about the Women Business Centers. We 
do have a bill to improve that, to expand it. And my wife is a 
business owner, and from many other small business owners that 
I have spoken with, they said sometimes it can be a very 
daunting task to get things up and running or to expand. And so 
I think what you are doing there at SBA and others with the 
program is very effective and we would like to gain your 
support for our legislation which has passed the House, and 
hopefully we can continue along those areas.
    Do you have any words of wisdom that you would like to say 
about what you are doing at SBA to continue on with the Women 
Business Centers?
    Ms. CARRANZA. I appreciate the question because that, as I 
indicated earlier, it is a focus of mine. It is not just in 
words but in action as well. I plan to visit the Women's 
Business Centers myself, not just reading the shortfalls in an 
IG report. They are a very necessary entity in the community, 
especially now. There are discussions about childcare. There 
are discussions about workforce development, and I think they 
are going to be essential.
    We are working with HBCUs and we are targeting HBCUs 
perhaps being the future entrepreneurs or the future interns at 
SBA or the future new District Director. So, we are looking for 
opportunities to really diversify not only in sector but in 
demographics as it relates to the leadership.
    Mr. HAGEDORN. Thank you.
    Ms. CARRANZA. Thank you.
    Mr. HAGEDORN. A couple of weeks ago I had an array of small 
business owners in my office, so minority businesses, women 
businesses, veteran-owned, and this is what they tell me: They 
tell me that a lot of 8(a) contracts, they have concerns with 
the SBA on how things are administered. That sometimes in the 
approval of what is called the contractors teaming agreements--
I had to write that one down--is delayed so bad that they miss 
the opportunity to even participate in the request for 
proposal. And so, is there something that you are working on in 
this area to make sure that the bureaucracy does not slow down 
the process so much for them that they cannot even participate 
and put in their bid?
    Ms. CARRANZA. I appreciate the feedback, and I would really 
like to get closer to that particular issue----
    Mr. HAGEDORN. All right.
    Ms. CARRANZA.--so I can go back and check the root cause 
and analyze. But I do know that there are shortfalls. There is 
an IG report that demonstrates, articulates the gaps and we are 
working with the Government Contracting Office to address all 
those IG issues.
    Mr. HAGEDORN. All right. Well, we would like to follow up 
with you and your staff on that.
    Ms. CARRANZA. Absolutely.
    Mr. HAGEDORN. And give you some examples if needed.
    Ms. CARRANZA. I look forward to meeting with you. Thank 
you.
    Mr. HAGEDORN. And see how we can fix that.
    And also, in the past, the United States Department of 
Agriculture and the Small Business Administration had an 
agreement where they were going to try to expand operations and 
do things in rural areas, rural communities. Do you intend to 
continue to work with USDA on that? Or have you met with 
Secretary Purdue, for instance or do you have that on the 
horizon?
    Ms. CARRANZA. We spoke about a future meeting to discuss 
that MOU. I know about it. It occurred recently; I think in 
2018 if I am not mistaken.
    Mr. HAGEDORN. I think that is right.
    Ms. CARRANZA. Yes. So, I look forward to implementing it in 
a great way. Very strategic, so.
    Mr. HAGEDORN. I appreciate it.
    Ms. CARRANZA. You can commit that I will be working with 
him in the very near future.
    Mr. HAGEDORN. Thanks for your leadership and your time 
today.
    Ms. CARRANZA. Thank you.
    Mr. HAGEDORN. We will follow up on that other issue.
    Ms. CARRANZA. Yes.
    Mr. HAGEDORN. Yes, ma'am.
    Ms. CARRANZA. Thank you.
    Mr. HAGEDORN. The gentleman yields back, and now we 
recognize the gentleman from Illinois, Mr. Schneider.
    Mr. SCHNEIDER. Thank you, Madam Chair. And I want to thank 
you and the Ranking Member for having this hearing today.
    Administrator Carranza, welcome. As a fellow Chicagoan, it 
is good to have you here.
    Ms. CARRANZA. Yes.
    Mr. SCHNEIDER. And I wish you much success as we continue 
to work to support, nurture, and grow our small business 
sector.
    Representing Chicago suburbs, the communities I represent 
are already facing the increasing impact of climate change. In 
fact, in just the past number of years, we have faced three 
100-year floods. Eleven years, three 100-year floods, including 
instances that have, indeed, triggered the SBA's Disaster Loan 
Assistance Program.
    We had a field hearing in the district last summer that 
examined the strains on this program. In our case, we were 
focused on the impacts of an upstream development just across 
the border in Wisconsin that it would have in my community. 
Wisconsin, to attract Foxconn, built a major facility there, 
irresponsibly waived critical environmental reviews, risking 
exacerbated downstream flooding in our communities, directly 
impacting communities that are dependent on their small 
businesses.
    While we mentioned climate change at the hearing it very 
well could have been the central focus of the entire hearing. I 
am concerned that the Federal disaster programs are not keeping 
pace with the increase in severe weather that we are already 
seeing as a result of climate changes.
    Administrator Carranza, the SBA's fiscal 2021 budget 
justification does not even mention climate change or the 
expected impact it will have on the Disaster Loan Assistance 
Program. How is the SBA taking into account the expected strain 
that climate change is expected to have on the program?
    Ms. CARRANZA. That is a good question, and I look forward 
to working with you on the Wisconsin suburb situation.
    I do not have a specific strategy or position on the 
climate change Disaster Office. I will have to get closer to 
that. I do not know if it is part of their current portfolio, 
it has been asked in previous administrations, but at this 
point we have been looking at Puerto Rico. Our focus has been 
there. And then also with the coronavirus.
    Mr. SCHNEIDER. And I understand it is a relatively news 
position, but having spent my career before coming to Congress 
working with small businesses doing strategic planning, looking 
to the future, making decisions where to invest and when to 
invest, the uncertainty of climate change is going to be a 
burden. The need to address it is going to be critical. I think 
there is an important role for your agency, for the entire 
government to play to help address that.
    Switching gears to talk about women-owned small businesses. 
It is so critical to help these businesses prosper and grow, 
like all small businesses. We have made the decision to have 
set-asides distributed throughout the variety of Federal 
contracts not be relegated to just a select few categories. A 
company in my district raised concerns which I have shared with 
the SBA that these set-asides are not representative of certain 
NAICS codes, particularly industries where women-businesses are 
underrepresented. We know the SBA has a set government-wide 
goal of 5 percent for Federal contracts with women-owned small 
businesses. The SBA's budget justification notes that the 
Federal Government spent 4.75 percent of small business 
eligible contracting dollars on women small businesses, women-
owned small businesses in fiscal year 2019.
    Administrator, how will the SBA continue working toward the 
goal of 5 percent?
    Ms. CARRANZA. Thank you for the question.
    It is to improve the relationships and the oversight with 
all of the other Federal procurement agencies. We have been 
asked to also look at how we can facilitate it. It is very 
difficult for small businesses, as you have been told, to 
contract with the Federal Government. And so we are trying to 
partner with the states also that as we are looking at 
streamlining our approaches, our regs, could the states also 
look at ways, because small businesses usually contract with 
states before they contract Federal to get the experience and 
the evaluation. So, I look forward to working with you on ways 
that we can improve that.
    Mr. SCHNEIDER. Thank you. And as I have said from this 
chair before, we have, and will continue to have workshops in 
the district on contacting for the Federal Government, for all 
small businesses, as well as women-owned and minority-owned 
small businesses. It is an oftentimes torturous process that if 
we could simplify and streamline that would be wonderful for 
everyone involved. But in the meantime, making sure that these 
companies have the skills and resources they need to reach that 
goal, but making sure that for your department, as well as all 
of us here, that we focus on the goals. We measure progress 
towards those goals, and ultimately, find paths to achieve 
those goals.
    With that, I yield back. Thank you.
    Ms. CARRANZA. Thank you, Congressman.
    Chairwoman VELAZQUEZ. The gentleman yields back.
    Now we recognize the gentleman from Oklahoma, Mr. Hern, 
Ranking Member of the Subcommittee on Economic Growth, Tax, and 
Capital Access.
    Mr. HERN. Thank you, Madam Chair, Ranking Member Chabot. 
Administrator, thank you so much for being here today.
    As a small business owner for the past 35 years before 
coming to Congress and in Congress, I am excited to see how you 
will be able to help American small businesses throughout the 
tenure at the SBA.
    That said, I am also the Ranking Member, as the Chairwoman 
mentioned, who overseas the SBA's 7(a) loan program and have 
questions regarding its recent rulemaking on this program.
    In the SBA's interim final rule on express loan programs 
and affiliation standards, the SBA modified the regulations 
surrounding the 7(a) program. This rule includes a new test for 
determining whether two entities are considered affiliated. 
However, the rule has several dates tied to it. the SBA's 
comment period lasts until April 10th, but the changes go into 
effect on March 11th. That is kind of a problem.
    For the record, there are only two things that have come 
before this Committee that have made me somewhat angry. One was 
the SBA asking for a $99 million subsidy on an unreleased 
arcane formula. The second is this.
    Just a few questions. Why is the SBA making these changes 
take effect before the comment period is even closed?
    Ms. CARRANZA. Congressman, I would like to get back to you 
on how that was derived. I just learned that that is how it is 
going to be implemented.
    Mr. HERN. Well, I would hope with your new leadership role 
that we would, I think without making you go on the record, I 
think you would find that somewhat problematic for a rule to go 
into effect. So, it would indicate you do not care about what 
the comments are. When I say ``you,'' I am saying your 
organization. And I reserve comment on your leadership yet 
until we continue to see how this plays out. But I would 
appreciate you getting back to us. Because I want to ask you a 
question for the record. My assumptions are that you consider 
farmers as business owners; correct?
    Ms. CARRANZA. Yes. As a matter of fact, the details that I 
have on the particular rule, as I mentioned, it is a 60-day 
comment period extension. We worked with the Department of 
Agriculture, as well as OMB, to position this, and so it is a 
matter of like really getting into the details to get back to 
you on this, Congressman.
    Mr. HERN. Well, I appreciate your thoughts and your 
comments, and I am assuming that you will work to extend that 
so that we have the opportunity to actually listen and for 
people to comment and look at the rule to make sure that it is 
something that we can work with and to give you actual comment 
that matters.
    Ms. CARRANZA. I look forward to it.
    Mr. HERN. Okay. And, you know, as we work on fixing these 
things throughout your tenure, there is also an issue with 
banking. As the founder of a small bank, I am interested in the 
CFPB's rulemaking, which will affect our banking industry and 
their ability to lend to our Nation's small businesses. The 
CFPB is promulgating a section 1071 rulemaking which requires 
financial institutions to collect data on lending to women and 
minority-owned small businesses with a goal to better screen 
for discrimination. This is an important goal, but the rules 
must be calibrated so that the data collection does not burden 
or force our leaders out of the small business lending market. 
And given the SBA's substantial expertise, would you agree to 
work with CFPB on the significant policy decisions in this 
rulemaking?
    Ms. CARRANZA. Of course. Yes.
    Mr. HERN. And then lastly, since the recession, community 
banks have seen their share of small business lending stall, 
and nonbank lenders have gained market share even though small 
business expressed lower customer satisfaction with the service 
provided by nonbanks. Once the CFPB's 1071 rule takes effect, 
banks will face a provision for data accuracy requirements and 
fair lending analysis while nonbanks will likely not have the 
same level of scrutiny.
    Are you concerned about this unlevel playing field between 
the two different types of lenders?
    Ms. CARRANZA. I would have to look at the CFPB. I know of 
it. We have worked with them closely when I was at Treasury but 
at SBA have not really delved into that and I look forward to 
working with you in that area.
    Mr. HERN. Well, thank you. Again, I want to state for the 
record that I am a huge supporter of SBA and what you do for 
small business owners and helping them get the capital to start 
a business, create jobs, put Americans to work. As you know and 
have seen in your short time in the job there are a lot of 
unanswered issues out there and we have been very critical of 
past people who have come and testified from the organization, 
from your organization, who have been not quite informed on 
being able to answer our questions. We look forward to having 
you back here as quickly as possible to answer the many 
questions you have gotten today because they are very critical 
to the people who are out there trying to make this economy 
work for them and help people get jobs and start on the pathway 
to create the next big company, the next big thing in America.
    Ms. CARRANZA. Well, Congressman, I can assure you that the 
first few weeks that I have been on board I have met with the 
banking trade associations, as well as women's trade 
associations to get input from them as to what they have 
realized, what are their members sharing with them, and also 
how particular regs are affecting them. I have to definitely 
get closer to working with them because it is a matter of a 
meet and greet. You do not really get an opportunity to break 
down specifically what needs to be fixed, but I look forward to 
continuing to meet with NAGGL, because I met with them already. 
Am I sure there are other associations and other members that 
would like to speak with me. Thank you.
    Chairwoman VELAZQUEZ. Time has expired.
    Mr. HERN. Thank you, Madam Chair.
    Chairwoman VELAZQUEZ. Now we recognize the gentlelady from 
Pennsylvania, Ms. Houlahan, for 5 minutes.
    Ms. HOULAHAN. Thank you, Madam Chair. And it is a pleasure 
to be introduced with you. My name is Chrissy Houlahan. I 
represent Pennsylvania 6th, which is just outside of 
Philadelphia. I have spent most of my life as an entrepreneur. 
I am obviously a woman. I happen to also be a veteran. So, it 
is a pleasure to be talking to you about these essential 
issues.
    And so, if it is okay, my first questions have to do with 
access to capital, which as a small business owner was 
definitely an issue. I remember putting my house on the line 
for signing a lease for a copier at one point in time, and I 
particularly am intrigued and interested in access to capital 
for underserved areas. My community also includes a city called 
Coatesville and a city of Reading, both of which are 
opportunity zones.
    And so I read in preparation for this, and this is just 
directly from the report, the first strategic objective in 
SBA's strategic plan of fiscal year 2018 and 2022, is to 
increase the number of loans by 5 percent to small businesses 
in socially and economically disadvantaged urban and rural 
areas. In fiscal year 2019, 20,527 SBA-backed loans were made 
to small businesses in socially and economically disadvantaged 
urban communities in rural areas. The agency fell short of its 
projected goal of 26,749 loans by 23 percent. You have 
apparently stated publicly that creating more opportunities for 
women, minority, and veteran-owned small businesses will be a 
priority of yours. And so, I was wondering if you could comment 
on how we possibly fell short on our goal by 23 percent? What, 
if anything, you are aware of we could have done so that we 
could have access to more capital be possible, and also, you 
know, how you are going to reconcile the fact that we already 
fell short with the idea that we should increase that idea.
    Ms. CARRANZA. The approach that I have used in learning of 
any program performance, deficiencies, or areas of opportunity 
would be to speak with the entire staff of those particular 
offices, the Office of Capital Access.
    As in any review, you are told about all of the great 
things that we have done and all of the billions that have been 
made available to small businesses and the number of jobs they 
have created, but there is always an opportunity, there is more 
that we can do. So that is my investigative role to ensure, not 
only to meet the government contracting targets but to exceed 
them because this is our window of opportunity. We have a great 
economic boom. I think there is a tax kind of, not haven but 
opportunities for small businesses to take advantage of, and we 
should be there with all our loan portfolios to support.
    Ms. HOULAHAN. Yeah, I definitely agree that in my 
experience measuring what matters is really important and it 
feels as though sometimes we do not ask the right questions but 
we get the answers that we deserve because we do not ask the 
right questions.
    And I also feel as though you kind of led me into the next 
question. In terms of those opportunity zones, my impression in 
my first year here is that my community of Coatesville and 
Reading, many of the folks who are already there as small 
entrepreneurs are not being allowed to have access to those 
loans, or do not know that they exist at all because, frankly, 
of more predatory, more opportunistic folks who are coming into 
the community and taking advantage of those opportunities from 
a small business perspective.
    Can you reflect on that at all, and how can we make sure 
that people in the community are able to access these loans?
    Ms. CARRANZA. I will do a dual head on that, Congresswoman, 
as I respond.
    Earlier, we were talking about access to capital as it 
relates to the overall underserved market. And we identified 
the underserved market as being the women and the veterans and 
minorities. That is why we are working with HBCUs to dive 
deeper into those communities. The Opportunity Zone is an 
opportunity for small businesses to really be able to grow and 
see perhaps an injection of investment from these huge funds. 
But the other area with regard to women's access to capital is 
the CDFI. I served on the CDFI Board, and I do not know if we 
really maximize their network or their opportunity, because I 
think the more alternative lenders there are--I am talking 
about micro lenders--the greater penetration we can have. 
Because the microloans are anywhere from $15,000 to $25,000. 
Not everyone wants a $250,000 loan.
    I spoke to a group of 100 Hispanic women and I told them 
typically who we borrow from is our grandparents or our dad or 
something to that effect, or a credit card. And so, we would 
like to start eroding that and have more microlenders 
available. And I think there is an opportunity there. That is 
going to be a strategy that I would like to build further with 
my leadership.
    Ms. HOULAHAN. I look forward very much to working with you 
on these particular issues.
    And my time has expired. I yield back. Thank you.
    Ms. CARRANZA. Thank you.
    Chairwoman VELAZQUEZ. The gentlelady's time has expired.
    With that, we conclude the Committee work today.
    I want to take this opportunity to thank you, Administrator 
Carranza, for being here with us and sharing your priorities 
for the SBA. The Committee greatly appreciates your commitment 
to improve SBA's program and services for America's small 
businesses. We really look forward to working with you to see 
that progress is being made in certain areas as you heard from 
our Committee Members.
    With that, I will ask unanimous consent that Members have 5 
legislative days to submit statements and supporting materials 
for the record.
    Without objection, so ordered.
    If there is no further business to come before the 
Committee, we are adjourned. Thank you.
    [Whereupon, at 1:03 p.m., the committee was adjourned.]
    [Hon. Jovita Carranza did not submit her Responses to 
Questions in a timely manner.]

                            A P P E N D I X

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
